0

No.
IN THE
SUPREME COURT OF THE UNITED STATES
MIGUEL A. CORUJO MERCADO
Petitioner
Vs.

" Supreme Court, vJ.S.
PILED

FEB 2 6 202'
OFFICE OP THE CLERK

STATE OF FLORIDA.
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
THE FIFTH DISTRICT COURT OF APPEAL
STATE OF FLORIDA

Petition for Writ of Certiorari

MIGUEL A. CORUJO MERCADO
DC# X77073
Graceville Correctional Facility
5168 Ezell Rd.
Graceville, FL 32440
Petitioner pro se

Graceyille Correctional

^

11

QUESTIONS PRESENTED
CAN A CRIMINAL DEFENDANT BE CHARGED AND
CONVICTED WITH MULTIPLE CONSPIRACIES FOR A
SINGLE CONTINUOUS CONSPIRACY ACT WITHOUT
VIOLATING RIGHT TO BE FREE FROM DOUBLE
JEOPARDY VIOLATIONS?

Ill

LIST OF PARTIES
[V] All parties appear in the caption of the case on the
cover page

RELATED CASES

Mercado v. State, Case No. 5D19-2241 In the District
Court of Appeal of the State of Florida, Fifth District.
Decision entered October 6, 2020, Mandated October 30.
2020.

IV

TABLE OF AUTHORITIES CITED
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED.......................................................................... 1
STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

12

INDEX TO APPENDICES

APPENDIX A - Mandate form District Court of Appeal of
State of Florida, Fifth District
APPENDIX B - Decision Filed October 6, 2020 of State
Court of Appeal, Per Curiam-Affirmed
APPENDIX C - State’s Exhibit Metropolitan Bureau of
Investigation, Transcripts, October 27
2017
APPENDIX D - Trial Transcripts
APPENDIX E - State’s Exhibit, Metropolitan Bureau of
Investigation, Transcripts, October 28
2017
APPENDIX F - The Florida Bar, Request for Assistance
(RFA No. 21-8133), Letter

V

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Blockburger v. United States, 284 U.S. 299 (1932).......7
Braverman v. United States. 317 U.S. 49^(1942)

7

Chamblee v. State of Florida. 905 F. 3d 1192
(11th Cir. 2018)...................................................

2

Toussie v. U.S.. 397 U.S. 112 (1970)

9

United States v. Bernhardt. 903 F. 3d 818, 825
(8th Cir. 2018).........................................................

10

United States v. Roy. 408 F. 3d 484, 491
(8th Cir. 2005)..............................................

10

United States v. Slim. 2020. U.S. Dist. LEXIS 119403.10
United States v. Sinto. 723 F. 2d 1250 (6th Cir. 1983).. 7
United States v. Wilson. 237 F. 3d 827 (7th Cir. 2001). 7
U.S. v. Kissel. 218 U.S. 601 (1910)

9

U.S. v. Rucker. 586 F. 2d 899 (2d Cir. 1978)

9

STATUTE AND RULES
U.S. Sup. Ct. R. 13

2

U.S.C. § 1257(a)....

1

775.021, Fla. Stat.

7

OTHER
United States Constitution Amend. V

1

•

1
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ of Certiorari
Issue to review the judgment below
OPINIONS BELOW
[V] For cases from state courts:
The opinion of the highest state court to review the
merits appears at Appendix A to the petition
[V] has been designated for publication but is not yet
reported.
JURISDICTION
[V] For cases from state courts:
The date on which the highest state court decided
my case was October 6, 2020. A copy of that decision
appears at Appendix B. Rehearing was not authorized and
no extension of time to file the petition for writ of certiorari
was requested. The Jurisdiction of this court is invoked
under 28 U.S.C. 1257(a).
CONSTITUTION AND STATUTORY PROVISIONS
U.S. Constitution Amendments V
“No person shall....be subject for the same offense to be
twice put in jeopardy of life or limb...”

2
STATEMENT OF THE CASE
This Writ of Certiorari stems from the June 17-21,
2019, jury trial against the Petitioner (hereinafter Mr.
Mercado), conducted in the Ninth Judicial Circuit, Orange
County, in the State of Florida, before the Honorable
Circuit Judge Daniel E. Traver. This Court has
Jurisdiction in accordance with U.S. Sup. Ct. R. 13. 1
Orange County Sheriffs Office Agent Laurie
Aversano, assigned to the Metropolitan Bureau of
Investigation (hereinafter referred to as “MBI”),
investigated drug trafficking organizations that operated
in Orange County, Florida. The original charges arose from
the multi-month investigation involving numerous co­
defendants. Aversano was introduced by a confidential
informant to Mr. Mercado, who directed Aversano to
Wale ska Reyes Vazquez. Mercado was the target of the
MBI’s investigation resulting in charges for multiple
conspiracies of drug trafficking offenses during a six-month
period.
Aversano made a controlled purchase of heroin on
the 11th day of May 2017, from Vazquez. Aversano and
Agent Alberto Rodriguez interpreted code words in the
conspiracy for heroin and cocaine along with weights in
intercepted conversations. Aversano purchased heroin in a
controlled purchase from Mr. Mercado in June, August and
September 2017. Agent Aversano obtained authorization
for a wiretap to intercept electronic communications on two
telephone lines that belonged to Mr. Mercado, and one line
for Waleska Reyes Vazquez. All discussions on the phone
lines were in Spanish and Agent Rodriguez monitored the
lines, listened to calls and provided interpretation of the
conversation.
i See Chamblee v. State of Florida, 905 F. 3d 1192 (11th Cir.
2018).

3
After initial charges were brought against Mercado
and seven co-defendants, the State charged Mercado only
in an amended fourth information. The first count in the
twenty-eight count information against Mr. Mercado
charged one violation of Florida’s Racketeer Influence and
Corrupt Organization Act (RICO) by unlawfully
participating in an enterprise, with counts two through
twenty eight (and three uncharged acts) being the
predicate offenses.
The relevant conspiracy charges were: Nine Counts
of conspiracy to traffic in Heroin (Counts 6, 7, 9, 12, 16, 20,
21, 23. 24); Three counts of conspiracy to traffic in Cocaine
(Counts five, nineteen, and twenty-two); four counts of
conspiracy to deliver cocaine (Counts 8, 11, 14, 17); and
three counts of conspiracy to deliver heroin (Counts 10, 13
15).
Mr. Mercado pled not guilty and proceeded to trial
before the Honorable Daniel Traver.
There was no testimony from any individual
member charged in conspiracy, only evidence of
intercepted communications in Spanish. The record calls
involved the sale, purchase, delivery of controlled
substances, heroin and cocaine, between individuals.
Agent Rodriguez, a Spanish speaking narcotics agent with
the MBI, monitored the intercepted calls and described the
transactions from the calls. Rodriguez identified the
individuals in phone calls and roles within the conspiracy.
The Alleged conspiracies began on October 10, 2017, and
continued through October 31, 2017. Rodriguez identified
David Gascot Lugo “Periguin”, as a supplier of controlled
substances to Mr. Mercado, who turned and sold and
supplied heroin and cocaine in large quantities to
individuals for resale. Interpreting the recorded call,
Rodriguez identified Mr. Mercado as the supplier of heroin
and cocaine for Harol Rivera “Almighty and that they

4
acted in furtherance of the distribution of controlled
identified
additional
substances.
Rodriguez
also
conspirators to whom Mr. Mercado supplied with
controlled substances; Herry Sanchez “Jay”, or “J”; and
Angel Negron Davila “Juni.” Rodriguez testified Waleska
Reyes Vazquez “Waly” served a role to bag heroin in the
drug trafficking organization. On October 15, 2017,
Vazquez and Sanchez participated in a phone call and
Vazquez delivered 400 bags of heroin to Sanchez.
The State rested and Mr. Mercado’s counsel argued
for a Judgment of Acquittal, stating the enterprise was one
continuing conspiracy created in furtherance of the
distribution of controlled substances, heroin and cocaine.
The State admitted all conspirators worked in concert, but
argued the evidence supported convictions for separate
conspiracies on separate days. The State continued that
when the supply and sales of controlled substances were
made on an as-needed basis this is sufficient proof of
separate conspiracies. The Trial Judge rejected Mercado s
argument, denied the judgment of acquittal as to the
cons piracy to traffic charges and all other counts. The Trial
granted a directed verdict in counts Eighteen (18) and
Twenty-Six (26).
Defense counsel objected to the prosecutors
statement in the First half of closing argument.
The court called both counsels to the bench and soon
thereafter overruled defense’s objection.
The Jury returned verdicts of guilt, as charged, in
counts one through seventeen, and counts nineteen
through twenty-five. The Trial Judge adjudicated Mr.
Mercado guilty in counts one through seventeen, nineteen
trough twenty-five and twenty eight. The judge imposed a
cumulative sixty year prison sentence, with minimummandatory terms and fines. Mr. Mercado filed a timely
notice of Appeal in the highest court of jurisdiction in his

5
State and was per curiam affirmed on October 6, 2020 and
soon thereafter mandated on October 30, 2020.

REASONS FOR GRANTING THE WRIT
The reason for granting the petition is because,
based on the evidence presented at trial, Mr. Mercado
participated in a single conspiracy with objectives of
multiple offenses and the sale and commission of the same
criminal offenses, when the State did not carry its burden
and failed to present evidence of an affirmative act that the
conspiracy had been abandoned or terminated. The
Judgment and sentences in multiple counts violate Mr.
Mercado’s double jeopardy rights. In the alternative, ten
conspiracy convictions and sentences violate double
jeopardy when the offenses were part of an ongoing
conspiracy between the same conspirators who committed
the same offense when there was no evidence this previous
conspiracy had been consummated, abandoned or
terminated.
Therefore, Mr. Mercado will show why the decision
of the lower (State) tribunal is erroneous, and must
importantly the national importance of having this
Honorable U.S. Supreme Court decide therein question(s)
involved. In addition, Mr. Mercado will show case conflicts
of other appellate court(s) into this cause in support of this
Certiorari request.
Question Presented (Restated)
CAN A CRIMINAL DEFENDANT BE CHARGED AND
CONVICTED WITH MULTIPLE CONSPIRACIES FOR A
SINGLE CONTINUOUS CONSPIRACY ACT WITHOUT

6
VIOLATING RIGHT TO BE FREE FROM DOUBLE
JEOPARDY VIOLATIONS?
ARGUMENT- Fifteen of the nineteen conspiracy
convictions violate double jeopardy when Mr. Mercado was
in a s single conspiracy.
The evidence at Mr. Mercado’s trial established one
continuous conspiracy for the possession, purchase, sale,
delivery and distribution of controlled substances, heroin
and cocaine. The conspiracy alleged in counts 5-17, 19-24,
continued from October 10, 2017, through November 6.
2017, and was one offense with different offense dates (R.
369-396). Which are basically and legally the same offense.
Thus the Petitioner is exposed to double jeopardy
prohibitions.
The double jeopardy clause prohibit multiple
convictions and punishments for the same offense.
Here, the State’s evidence and the information filed
in this case concerning the RICO act violation and the
nineteen (19) conspiracy to traffic in illegal drugs are all
the same. All nineteen charges are intermingled within the
same time frame; convictions for both conspiracy to traffic
in heroin and conspiracy to commit RICO has long since
been recognized to violate double jeopardy prohibitions
throughout Federal and State Judiciaries and its an
established legal principle and jurisprudence.
The State did not carry their burden when it failed
to present evidence of an affirmative act to prove the one
conspiracy has been consummated, abandoned, or
otherwise terminated. Mr. Mercado avers that only
remaining conviction and sentences are one count for each
of the conspiracy charges (Deliver Cocaine, Deliver Heroin;

7
Conspiracy to Traffic in Cocaine; Conspiracy to Traffic in
Heroin)..
The Double Jeopardy Clause Prohibits Multiple
convictions and punishments for the same offense.
Blockburger v. United States. 284 U.S. 299 (1932);
Blockburger has been codified in Section 775.021, Florida
Statutes (2016). Mr. Mercado understands courts have
acknowledged, however, that a Blockburger analysis is illsuited to a conspiracy case. United States v. Sinto, 723 F.
2d 1250 (6th Cir. 1983) (Recognizing “inherent infirmities”
in applying traditional double jeopardy analysis to
conspiracy cases), disagreed with other grounds by United
States v. Wilson. 237 F. 3d 827 (7th Cir. 2001).
Whether
an information charges
multiple
conspiracies or a single ongoing conspiracy depends upon
analysis of the proof addressed at trial, but it is certain
“that a single agreement to commit an offense does not
become several conspiracies because it continues over a
period of time.” Braverman v. United States, 317 U.S. 49
(1942). A criminal conspiracy continues to exist until
consummated, abandoned, or otherwise terminated by
some affirmative act. The State did not carry the burden
mentioned above, specifically were transcripts in concert
with jury trial proceedings will show, in pertinent part:
Count 19 and Count 22, by the information, both
counts violate double jeopardy clause.
Count 19 - Conspiracy to Trafficking 28 grams or
more of cocaine, when in the transcript for Mercado 75302
2 See State’s Exhibit, MBI Transcripts for Target Line: Mercado 7530, attached in
full as Appendix - - C

8
Session/Call # 2294 (Incoming Call Information of
10/27/2010 shows Mr. Mercado and Hard Rivera; Rivera
offer Mr. Mercado a Zetita for $1,000.00 and the MBI
agent, Albert Rodriquez, indicates “Z” means an ounce of
cocaine, but Rivera and Mr. Mercado “never came to an
agreement” that day. See Trial Transcripts at p. 379-380
Lines 24, 25.1
Double Jeopardy was violated when in Count 22, by
the information; Mr. Mercado is charge again with a
conspiracy to trafficking 28 grams or more of cocaine, when
this was a continuation for the same deal the next day of
October 28, 2017.
Count 19 (October 27, 2017) and Count 22 (October
28, 2017) is the same transaction of October 27th, at which
Agent Rodriguez testified at Mr. Mercado’s trial “...never
came to an agreement.” This is further verified from the
Target Line, transcripts Mercado # 7530, Supra,
specifically in the second and third lines, which states in
pertinent part:
Rivera: Good morning, what’s going on.
MACM: Here, I stood waiting for you all
Night.

Here, Mr. Mercado never consummated said
transaction on the 27th October as indicated in the
transcribed phone call of the proceeding day of the 28th.
(See Appendix-E).

1 See Trial Transcripts attached in pertinent part as
Appendix -D

9
In fact, Rivera contacted Mr. Mercado to give him
the “Z” at which the “Stood waiting...all night” and there is
no other evidence the two had to meet for something else.
It is only on the 28th day of October when Rivera needs a
favor from Mr. Mercado who needs “5 grams,” but Rivera
“going” to his “home to grab the Z” and give it to Mr.
Mercado in order to fix the mistake the night before where
Rivera left Mr. Mercado waiting for him all night. (See p. 2
of 3 (Session/Call # 2533) Appendix - - E)
Mr. Mercado says to Rivera who agreed to furnish
the “Z” he was supposed to produce the night before:
MACM: Ahh, that’s perfect, see that’s even
Better, you already know (laugh)
Rivera: (Laughs) Like the kid doesn’t
Know what he’s doing (Laugh).
Mr. Mercado avers to be charged and convicted for
the agreement for the same “Z” or cocaine in two different
days is a double jeopardy violation as adduced above,
because it was a continuation from the same deal.
As a matter of law, a conspiracy continues to the
time of abandonment or success. U.S. v. Kissel, 218 U.S.
601, 608, 31 S.Ct. 124, 126, 54 L.Ed 1168 (1910). In other
words, a conspiracy continues as long as co-conspirators
engage in overt acts in furtherance of their plot. Toussie v,
U.S., 397 U.S. 112, 122, 90 S.Ct. 858, 864, 25 L.Ed. 2d 156
(1970). Once a conspiracy is shown to exist, it does not end
merely by a lapse of time. U.S. v. Rucker, 586 F. 2d 899
(2d Cir. 1978). The multiplicity doctrine bars prosecution
of crimes that violate the Double Jeopardy Clause. An

10
indictment is multiplicitious if it charges the same crime in
two counts.
Where the same act or transaction constitutes a violation
of two distinct statutory provisions, the test to be applied
to determine whether there are two offense or only one is
whether each provision requires proof of a fact which the
other does not. Unless two offenses each contain an
element into in the other, they are the same offense and
double jeopardy bars additional punishment. United
States v. Slim. 2020. U.S. Dist. LEXIS 119403 (quoting
United States v. Bernhardt. 903 F. 3d 818, 825 (8th Cir.
2018)) to show multiplicity, “a defendant must show that
the two offenses charged are in law and fact the same
offense.” United States v. Roy. 408 F. 3d 484, 491 (8th Cir.
2005). .
CERTIORARI IS NEEDED WHERE THE ISSUE(S)
ARE EXPECTED TO RECUR
The lower tribunal knew or should have known in
this instant cause a violation of double jeopardy has
occurred. Despite the decision of the lower tribunal being
erroneous, Mr. Mercado express a belief, based upon the
reasoned and afore-cited precedents, of the national
importance to have this Honorable U.S. Supreme Court
decide the question herein involved.
May the Honorable Court take notice, Petitioner, at
this time, is only able to point out one of many instances of
the double jeopardy implications ensued pertinent to this
case. Unfortunately, Mr. Mercado is currently awaiting his
complete “discovery” that has not yet been forthcoming, in
its entirety, at no fault of the Petitioner, rendering Mr.

11
Mercado unable to attach record evidence for this Court’s
review. 2
In Close, Mr. Mercado respectfully requests the
consideration of the sentence impositions he is actively
serving. Mr. Mercado understands that State sentencing
schemes are not within the respectable province of the U.S.
Supreme Court/Federal Judiciary; but however, urge this
Honorable Court to take notice of past and current
presidential administrations are mandating criminal
justice reforms, specifically dealing with "mandatory
minimum sentences.” Mr. Mercado is currently
incarcerated at a privatized (G.E.O., Inc.) prison for profit
while serving various “mandatory minimum sentences
amounting to a cumulative Sixty-year prison term in
retrospect of the charges and convictions in violation of the
double jeopardy protections, respectfully.

2 Mr. Mercado never received a complete discovery prior to
trial nor during trial, even to date. Petitioner has notified
the Florida Bar for assistance at which Bar Counsel has
compelled Petitioner’s trial counsel (Aaron Baghadadi,
Esq.) to provide said constitutionally protected legal effects.
See Appendix - - F

12

CONCLUSION
The petition for Writ of Certiorari should be granted

Respectfully Submitted

Date:

d-js-L, |»|.

digue! Corujo Mercado^#5

No.

IN THE
SUPREME COURT OF THE UNITED STATES

MIGUEL A. CORUJO MERCADO
Petitioner
Vs.
STATE OF FLORIDA.
Respondent

APPENDICES TO PETITION FOR WRIT OF CERTIORARI

APPENDIX A - Mandate form District Court of Appeal of
State of Florida, Fifth District
APPENDIX B - Decision Filed October 6, 2020 of State
Court of Appeal, Per Curiam-Affirmed
APPENDIX C - State’s Exhibit Metropolitan Bureau of
Investigation, Transcripts, October 27,
2017
APPENDIX D - Trial Transcripts

APPENDIX E - State’s Exhibit, Metropolitan Bureau of
Investigation, Transcripts, October 28
2017
APPENDIX F - The Florida Bar, Request for Assistance
(RFA No. 21-8133), Letter

pi^sta
‘Bpuopj jo apjg
jo paddy jo pmoQ joiijsiq uiioj appunp\[ - y XI(3N3dJV

E
from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA

FIFTH DISTRICT
THIS CAUSE HAVING BEEN BROUGHT TO THIS COURT BY APPEAL OR BY PETITION, AND
AFTER DUE CONSIDERATION THE COURT HAVING ISSUED ITS OPINION OR DECISION;
YOU ARE HEREBY COMMANDED THAT FURTHER PROCEEDINGS AS MAY BE REQUIRED
BE HAD IN SAID CAUSE IN ACCORDANCE WITH THE RULING OF THIS COURT AND WITH THE
RULES OF PROCEDURE AND LAWS OF THE STATE OF FLORIDA.
WITNESS THE HONORABLE Kerry I. Evander, CHIEF JUDGE OF THE DISTRICT COURT OF
APPEAL OF THE STATE OF FLORIDA, FIFTH DISTRICT, AND THE SEAL OF THE SAID COURT AT
DAYTONA BEACH, FLORIDA ON THIS DAY.
DATE: October 30, 2020
FIFTH DCA CASE NO.: 5D 19-2241
CASE STYLE: MIGUEL ANGEL CORUJO MERCADO

v.

STATE OF FLORIDA

COUNTY OF ORIGIN: Orange
TRIAL COURT CASE NO.: 2017-CF-015658-A-O
I hereby certify that the foregoing is
(a true copy of) the original Court mandate.

M
♦i

WM
SANDRA B. WILLIAMS; CLERK
Mandate and Opinion to: Orange Cty Circuit Ct Clerk
cc: (without attached opinion)
Office of the Public Defender
Office of the Attorney General

L. Charlene Matthews

Nancy Ryan

APPENDIX B - Decision Filed October 6, 2020 of State
Court of Appeal, Per Curiam-Affirmed

